                    U.S. Department of Agriculture

                        Office of Inspector General
                                   Northeast Region




        Audit Report

  Food and Nutrition Service
Child Nutrition Labeling Program




                         Report No. 27601-13-Hy
                                September 2006
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




September 28, 2006

REPLY TO
ATTN OF:      27601-13-Hy


TO:           Roberto Salazar
              Administrator
              Food and Nutrition Service

ATTN:         Lael Lubing
              Director
              Grants Management Division

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Food and Nutrition Service Child Nutrition Labeling Program


This report presents the results of our audit of the Food and Nutrition Service’s Child Nutrition
Labeling Program. Your response to the official draft, dated September 19, 2006, is included as
exhibit A. Excerpts of your response and the Office of Inspector General’s position are
incorporated into the Findings and Recommendations section of the report. Based on your
response, we were able to reach management decision on all of the report’s five
recommendations.       Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Food and Nutrition Service Child Nutrition Labeling Program
(Audit Report No. 27601-13-Hy)

Results in Brief                      The Child Nutrition (CN) Labeling Program is a voluntary program
                                      administered by the Food and Nutrition Service (FNS). FNS administers the
                                      program in conjunction with the Food Safety and Inspection Service (FSIS)
                                      and the Agricultural Marketing Service (AMS) within the U.S. Department of
                                      Agriculture (USDA) and the National Marine Fisheries Service (NMFS) of
                                      the U.S. Department of Commerce. The program involves the initial review
                                      and approval by FNS and the appropriate FSIS, AMS, or NMFS officials’
                                      reviews of processors’ recipes and/or product formulas to determine the
                                      contribution a serving of the product provides toward meal pattern
                                      requirements 1 of FNS programs. FNS is responsible for the review and
                                      approval of the CN label statement to ensure its accuracy. To receive a CN
                                      label, a product must be produced under Federal inspection and the
                                      inspection must be performed in accordance with an approved partial or total
                                      quality control program. 2

                                      Our audit identified and evaluated FNS’ controls to ensure that CN labeled
                                      products were labeled, manufactured, and inspected in accordance with
                                      program requirements. During June and July 2005, we visited six active
                                      processors in the CN Labeling Program to test FNS controls over the
                                      program. Overall, we found that FNS did not implement the necessary
                                      controls to deter processors from using CN labels that had not been approved.
                                      In addition, FNS did not ensure that processors’ partial quality control
                                      programs (PQCP) adhered to established guidelines.

                                      Two of the six processors produced CN labeled calzone and cheese shell
                                      products without FNS approval and one processor distributed approximately
                                      12,500 pounds of mislabeled calzone. This occurred due to the lack of
                                      coordination between FNS and the inspection agencies (FSIS and AMS) and
                                      because inspectors did not validate whether processors received FNS
                                      approval for their CN labels. 3 In addition, FNS did not implement
                                      compensating controls such as monitoring of processors’ activities or
                                      following up when processors did not resubmit their CN label applications
                                      for final approval. The CN Labeling Program has insufficient consequences
                                      for processors who abuse requirements for CN labeled products.
                                      Consequences such as fines, penalties, and suspensions would more
                                      appropriately address the severity of these infractions. As a result, the

1
    The meal pattern requirements specify the foods and the minimum amounts that must be served in institutions participating in the CN Programs.
2
    Under FSIS regulations, a company may choose to place all of the processes and products in a plant under a comprehensive or total quality control
    system, or the company may choose to place only individual products or processes under a PQCP. A PQCP controls a single product, operation, or part
    of an operation in a meat or poultry establishment.
3
    The two processors had only received sketch approval from FNS. Sketch approved labels must be resubmitted to FNS for final approval.

USDA/OIG-AUDIT No. 27601-13-Hy                                                                                                                Page i
                                       integrity of products that carry CN labels is weakened 4 because unapproved
                                       CN labeled products do not provide assurance that the meal pattern
                                       requirements of the CN Programs are met.

                                       During our visit to one of the processors, we found that the owner did not
                                       have FNS final approval of a CN label; however, he continued production
                                       under the unapproved label. 5 In August 2005, we advised FNS of the
                                       processor’s non-compliance and later that month, we notified them of the
                                       owner’s continued production and distribution. In September 2005, FNS sent
                                       a letter to the processor that stated that FNS would not approve the sketched
                                       label and rescinded a different, prior-approved label. Later that month, FSIS
                                       issued a notice of warning to the processor and the processors’ distributor
                                       because the distributor allowed labels bearing the Federal marks of inspection
                                       to be applied to products without authorization.

                                       FSIS inspects CN labeled meat and poultry products. NMFS inspects CN
                                       labeled seafood products. CN labeled non-meat products can be
                                       cross-inspected by FSIS or NMFS, or inspected by AMS. AMS also inspects
                                       certain juice products.

                                       FNS entered into a Memorandum of Understanding (MOU) with the
                                       inspection agencies, which is limited to cross-utilization of FSIS, AMS, and
                                       NMFS inspectors to inspect non-meat products. The agreement did not
                                       establish an inspection mechanism for ensuring that FNS had approved the
                                       labels that processors applied to CN products. FNS and the inspection
                                       agencies met in 1998 because FSIS had stopped reviewing PQCPs; however,
                                       the MOU was not revised. We found that no interagency agreement addresses
                                       the review and approval of PQCPs for the CN Labeling Program.

                                       Each of the six processors we visited had a PQCP as required by FNS;
                                       however, we identified deficiencies in four of them. They did not meet the
                                       requirements for label control, product formulation control, and weight
                                       control. We also noted that the PQCPs did not always identify the products
                                       covered or define and identify product lots. 6 This occurred because FNS did
                                       not establish controls for the review and approval of PQCPs after FSIS
                                       eliminated its requirement for approving the programs. As a result, CN
                                       labeled products may be prepared improperly and may not meet the meal
                                       pattern requirements. In addition, ineligible products may be labeled as
                                       approved CN products.


4
    USDA believes that the “CN logo” is needed to protect the integrity of the CN Labeling Program. The CN logo is a distinct border around the “CN
    label statement.” The CN label statement includes the following: (1) The product identification number, (2) the statement of the product’s contribution
    toward meal pattern requirements, (3) statement specifying that the use of the CN logo and CN statement was authorized by FNS, and (4) the approval
    date.
5
    FNS assigns the CN identification number before granting final approval of the CN label to reduce the risk that the number will be incorrectly printed
    on the label.
6
    Lot is the term used by processors to define and identify production.

USDA/OIG-AUDIT No. 27601-13-Hy                                                                                                                  Page ii
                   Our audit tests determined that FNS’ process for determining label accuracy
                   was adequate. This was based on our review of label approval documents at
                   FNS Headquarters for 33 processors located in the Northeastern United
                   States.

Recommendations
In Brief           To deter unauthorized production and distribution of products that bear CN
                   identification numbers, FNS needs to implement formal procedures that
                   ensure that CN labeled products have received the final approval of FNS.
                   The procedures should require revocation of CN identification numbers for
                   labels of processors who abandoned the application process. In addition, FNS
                   needs to coordinate with USDA’s Office of the General Counsel and
                   interagency inspection officials to impose consequences such as fines,
                   penalties, and suspension on abusers of the CN Labeling Program. FNS also
                   needs to coordinate with the inspection agencies to revise the MOU to
                   address such issues as expanding coverage from non-meat products to all
                   types of CN labeled products and establishing a procedure for approving
                   processors’ PQCPs.

Agency Response    FNS agreed with the report’s five recommendations. We have incorporated
                   excerpts from FNS’ response in the Findings and Recommendations section
                   of this report, along with the Office of Inspector General (OIG) position.
                   FNS’ response is included as Exhibit A.

OIG Position       Based on FNS’ response, we were able to reach management decision on all
                   of the report’s recommendations.




USDA/OIG-AUDIT No. 27601-13-Hy                                                         Page iii
Abbreviations Used in This Report


AMS                 Agricultural Marketing Service
C.F.R.              Code of Federal Regulations
CN                  Child Nutrition
FNS                 Food and Nutrition Service
FSIS                Food Safety and Inspection Service
HACCP               Hazard Analysis and Critical Control Points
MOU                 Memorandum of Understanding
NMFS                National Marine Fisheries Service
OGC                 Office of the General Counsel
OIG                 Office of Inspector General
PQCP                Partial Quality Control Program
SFA                 School Food Authority
USDA                U.S. Department of Agriculture
USDC                U.S. Department of Commerce




USDA/OIG-AUDIT No. 27601-13-Hy                                    Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. FNS Label Controls ......................................................................................................... 5

        Finding 1             Procedures for Deterring Industry’s Use of Unapproved CN Labels Not
                              Adequately Developed ............................................................................................ 5
                                  Recommendation 1 .......................................................................................... 8
                                  Recommendation 2 .......................................................................................... 8
                                  Recommendation 3 .......................................................................................... 9
                                  Recommendation 4 .......................................................................................... 9

    Section 2. Partial Quality Control Programs ............................................................................... 11

        Finding 2             FNS Did Not Ensure that PQCPs Adhered to Established Guidelines ................. 11
                                 Recommendation 5 ........................................................................................ 13

Scope and Methodology........................................................................................................................ 14

Exhibit A – Agency Response ................................................................................................................ 1




USDA/OIG-AUDIT No. 27601-13-Hy                                                                                                            Page v
Background and Objectives
Background         The mission of the Food and Nutrition Service (FNS) is to increase food
                   security and reduce hunger in partnership with cooperating organizations by
                   providing children and low-income people access to food, a healthful diet,
                   and nutrition education in a manner that supports American agriculture and
                   inspires public confidence. The FNS’ Child Nutrition (CN) Programs provide
                   healthy, nutritious meals and snacks to the nation’s children. Sponsoring
                   entities receive cash and commodity assistance for each meal they serve
                   provided the meals meet the minimum dietary standards established by FNS.

                   During the 1970’s, advances in food technology and marketing increased the
                   availability and use of commercially prepared products such as beef patties
                   and combination items (burritos, pizza, etc.) in the CN Programs. These
                   products posed a problem for food service directors. It was difficult at the
                   point of sale to determine their actual contribution toward meal pattern
                   requirements and to assure compliance with Federal regulations for serving
                   specific amounts of foods. This fact, coupled with the anticipation of
                   increased sales of these products to CN Programs, prompted FNS to form an
                   evaluation committee to determine a means for properly evaluating the
                   contribution of these kinds of products toward the meal pattern requirements.
                   The committee, composed of FNS and the U.S. Department of Agriculture’s
                   (USDA) Food Safety and Inspection Service (FSIS) staff, worked together to
                   establish and implement a program to review and monitor such products.
                   This program became known as the CN Labeling Program.

                   The CN Labeling Program is a voluntary technical assistance program
                   administered by FNS in conjunction with the FSIS and the Agricultural
                   Marketing Service (AMS) within USDA, and the National Marine Fisheries
                   Service (NMFS) of the U.S. Department of Commerce (USDC). In
                   May 1984, a final rule was published in the Federal Register to establish an
                   Appendix C to 7 Code of Federal Regulations (C.F.R.) 210, the National
                   School Lunch Program; 7 C.F.R. 220, the School Breakfast
                   Program; 7 C.F.R. 225, the Summer Food Service Program; and 7 C.F.R.
                   226, the Child and Adult Care Food Program. The final rule (1) formally
                   established the CN Labeling Program, (2) established product eligibility,
                   (3) established a logo and distinctive border to enclose the label statement,
                   (4) established a warranty against audit claims for products that were CN
                   labeled, (5) authorized the Secretary of Agriculture to issue guidance material
                   on the CN Labeling Program, and (6) defined the parts of the CN label
                   statement.




USDA/OIG-AUDIT No. 27601-13-Hy                                                             Page 1
                   The program involves the initial review and approval by FNS and appropriate
                   FSIS, AMS, or NMFS officials of processors’ recipes and/or product
                   formulas to determine the contribution a serving of the product provides
                   toward meal pattern requirements of FNS programs. FNS is responsible for
                   the review and approval of the CN label statement to ensure its accuracy.
                   Production of CN products without FNS final approval is a direct violation of
                   FNS labeling policy. FNS reviews of CN label applications result in four
                   types of determinations; final, temporary, rejected, and sketch. On sketch
                   approvals, FNS comments on the label. FNS rubber-stamps their
                   determination on the first page of each copy of the CN label application. To
                   receive a CN label, a product must be produced under Federal inspection by
                   FSIS, AMS, or NMFS. The Federal inspection must be performed in
                   accordance with an approved partial or total quality control program or
                   standards established by the appropriate Federal inspection service. FSIS
                   stopped approving Partial Quality Control Programs (PQCP) in 1997.

                   Products eligible for CN labels include (1) commercially prepared food
                   products that contribute significantly to the meat/meat alternate component of
                   meal pattern requirements of 7 C.F.R. § 210.10 or 210.10a, 225.21 or 226.20,
                   depending on the FNS program and are served as a main dish and (2) juice
                   drinks and drink products that contain a minimum of 50 percent full strength
                   juice by volume. The principal benefit for a school food authority (SFA)
                   procuring CN labeled product is that the product carries a warranty. This
                   means that if the SFA participating in CN Programs purchases a CN labeled
                   product, the SFA will not have an audit or review claim filed for
                   non-compliance with meal pattern requirements, for the applicable
                   components. Another benefit for the SFA is that the product contents are
                   clearly labeled and the product clearly states that it was inspected by USDA
                   in accordance with FNS requirements. The benefit to the processor is that it
                   can market the products to SFAs directly with the advertisement that the
                   product is approved by FNS for FNS CN Programs use.

                   Under the CN Labeling Program, meat and poultry products are inspected by
                   FSIS. CN labeled seafood products are inspected by NMFS. CN labeled
                   non-meat products can be cross-inspected by FSIS or NMFS, or inspected by
                   AMS. AMS also inspects certain juice products.

USDA/OIG-AUDIT No. 27601-13-Hy                                                            Page 2
                   In December 1983, a Memorandum of Understanding (MOU) among FNS
                   and the inspection agencies established a mechanism for inspecting non-meat
                   processed products for the CN Labeling Program. It provided that when
                   non-meat products are inspected by FSIS under cross-utilization, the
                   inspection would be performed in accordance with partial quality control
                   procedures established by FSIS and when non-meat products were inspected
                   by AMS/USDC, that the inspection would be performed under AMS/USDC
                   inspection guidelines.

                   Prior to 1997, FSIS inspectors were responsible for determining whether
                   plant management was complying with the provisions of the prescribed
                   quality control program. Their goal, according to FNS’ 1993 FSIS
                   Inspector’s Guide, was to be accomplished by performing evaluation and
                   verification tasks to monitor critical inspection points whenever CN labeled
                   products are produced. Evaluation and verification tasks included formulation
                   and ingredient control and component and portion control. With formulation
                   and ingredient control, the inspector verified the weight of all ingredients
                   listed in the product formulation on the label transmittal. With component
                   and portion control, the inspector checked the weight of all major
                   components and the cooked and raw portion weights of the product, where
                   applicable, against the information provided on the label transmittal and the
                   CN label statement.

                   In August 1997, FSIS published a final rule in the Federal Register
                   “Elimination of Prior Approval Requirements for Establishment Drawings
                   and Specifications, Equipment, and certain PQCPs.” Through this rule, FSIS
                   ended its prior approval of most establishment-operated PQCPs. This action
                   was taken as part of FSIS' regulatory reform effort to improve FSIS' meat and
                   poultry food safety regulations, including Hazard Analysis and Critical
                   Control Points (HACCP), better define the roles of Government and the
                   regulated industry, encourage innovations that improve food safety, and
                   remove unnecessary regulatory burdens on inspected establishments. FSIS
                   planned to continue checking whether CN label processors maintained
                   PQCPs and obtained CN label approval.

                   However, FNS still wanted processors to maintain PQCPs. Therefore, they
                   subsequently sent a memo to the processors in the CN Labeling Program in
                   September 1997. The memo stated that although FSIS had removed the
                   requirement for prior approval of PQCPs, FNS still required plants to have a
                   PQCP or an equivalent in place before producing or distributing CN labeled
                   product.




USDA/OIG-AUDIT No. 27601-13-Hy                                                           Page 3
Objectives         Our audit objectives were to identify and evaluate FNS’ controls to ensure
                   that CN labeled products were labeled, manufactured, and inspected in
                   accordance with regulations. Specifically, we reviewed procedures for
                   (1) approving CN labels, (2) ensuring CN label accuracy, (3) inspecting CN
                   labeled products, and (4) ensuring that products conform to CN label
                   statements.

                   The audit was conducted at the FNS National office and selected food
                   processors. The audit objectives were accomplished through (1) a review of
                   FNS, FSIS, AMS, and NMFS regulations, policies and procedures relating to
                   the CN Labeling Program, and discussions with officials regarding concerns
                   with program operations, (2) examination of records, reports,
                   correspondence, and other documents, (3) testing of policies, procedures, and
                   controls, and (4) auditor observations. The scope of coverage included fiscal
                   years 2004 and 2005.




USDA/OIG-AUDIT No. 27601-13-Hy                                                           Page 4
Findings and Recommendations
Section 1. FNS Label Controls



Finding 1                            Procedures for Deterring Industry’s Use of Unapproved CN Labels
                                     Not Adequately Developed

                                     We visited six Pennsylvania processors that produced CN labeled products.
                                     Two of these processors produced CN labeled calzone and cheese shell
                                     products without FNS approval and one processor distributed the mislabeled
                                     calzone. Due to the lack of coordination between FNS and the inspection
                                     agencies (FSIS and AMS), inspectors did not validate that processors received
                                     FNS approval for their CN labels prior to the production of CN labeled
                                     product. In addition, FNS did not implement compensating controls. These
                                     include (1) monitoring activities to ensure that processors did not produce CN
                                     labeled product without required approvals or (2) following up when
                                     processors do not resubmit their CN label applications for final approval
                                     within a specified time period. The CN Labeling Program has insufficient
                                     consequences for processors who abuse requirements for CN labeled products.
                                     Consequences such as fines, penalties, and suspensions would more
                                     appropriately address the severity of these infractions. As a result, the
                                     integrity of products that carry CN labels is weakened because unapproved CN
                                     labeled products do not provide assurance that the meal pattern requirements
                                     of the CN Programs are met.

                                     Federal regulations 7 require that the CN label be reviewed and approved at the
                                     national level by FNS. FNS policy requires that CN products cannot be
                                     produced and labeled until after FNS has reviewed and approved the label in
                                     final. To remind processors of the requirement, FNS stamps FNS sketch
                                     approvals, "SKETCHED by FNS must be resubmitted for Final." Sketch labels
                                     are printer’s proofs having edits that must be made or are draft labels.

                                     The CN identification number is an integral part of the CN label statement.
                                     FNS does not give final approval if the CN identification number is
                                     handwritten on the label. FNS assigns CN identification numbers to
                                     processors upon request before they submit applications or when applications
                                     are received. This enables applicants to have the CN label statement printed
                                     as an integral part of product labels as required by regulations, 8 before final
                                     approval can be obtained from FNS.



7
    7 C.F.R. 210, 220, 225, 226 Appendix C, 3, 4(a), 4(b), and 6.
8
    7 C.F.R. 210, 220, 225, 226 Appendix C, 3(c) and 4(c).

USDA/OIG-AUDIT No. 27601-13-Hy                                                                                Page 5
                  To enhance interagency cooperation, FNS and the inspection agencies need to
                  revise the program’s MOU. This document provides a mechanism for
                  inspecting non-meat products, and focused on cross-utilization of inspectors
                  from FSIS, AMS, and NMFS. The MOU does not address inspection of CN
                  meat, poultry, juice, and seafood products or the role of inspection agencies in
                  ensuring that FNS has approved the CN labels that processors use.

                  Two food processors that we visited in July 2005 produced CN labeled
                  products that FNS had not approved. Both processors developed quality
                  control programs that incorrectly asserted that FNS had given final approval of
                  CN labels and the USDA inspectors did not verify their claims. Consequently,
                  FSIS and AMS inspections failed to detect that FNS had not authorized
                  production under the CN Labeling Program.

                  •   FSIS Inspected Processor

                      This processor reformulated a CN labeled calzone and requested FNS’
                      approval of the new CN label. FNS reviewed the application, assigned a
                      new CN number, and returned the application package in October 2004 for
                      label changes and resubmission. Nine months later, our review disclosed
                      that the processor produced and distributed the product, without
                      resubmitting a revised label application package and obtaining FNS’
                      approval. Our site visit disclosed that the processor produced
                      approximately 700 cases (approximately 13,400 pounds) of calzone with
                      the unapproved CN label in 2005 and distributed 650 cases (approximately
                      12,500 pounds) to two distributors. They produced additional cases of the
                      unapproved product after our site visit, despite advice from a supervisory
                      FSIS inspection official that they needed approval from FNS. We notified
                      FSIS Headquarters officials of the continued production of unapproved
                      product in August 2005. As a result, an FSIS investigator from the
                      Philadelphia District Office detained 73 cases of product at a distributor
                      for not having FNS approval to use the CN label.

                      The FSIS inspector was not aware that the CN labels needed final FNS
                      approval. This prompted the FSIS supervisory inspection official to remind
                      four inspectors that FNS approval of CN labels is required prior to
                      production.

                      FNS and FSIS discussed concerns about the processor’s actions, and FSIS
                      decided that there was no food safety issue warranting a product recall.
                      FSIS investigated the processor and one distributor, which prompted the
                      detention of products. FNS wanted the detained products returned from a
                      distributor to the processor to be labeled as a non-CN product. An FSIS
                      inspector witnessed the label change. FSIS also required the processor to
                      revise the listing of CN products in their PQCP. In addition, FSIS issued
                      notices of warning to the processor and a distributor. The FSIS
USDA/OIG-AUDIT No. 27601-13-Hy                                                             Page 6
                      investigations disclosed that the processor replaced the unapproved label at
                      a distributor’s facility, using an approved CN label for the original calzone.
                      FSIS scheduled increased monitoring of the processor and distributor
                      because labels bearing the Federal marks of inspection were applied
                      without authorization at a facility that lacked Federal approval.

                      FNS rescinded the approved CN label, refused to approve the
                      sketch-approved CN label, and advised the processor that FNS Regional
                      offices would be notified of the decision. Additionally, FNS allowed the
                      processor to re-label the detained product as non-CN product in the
                      presence of an FSIS inspector. FNS advised the processor that continued
                      disregard for the CN labeling requirements could result in expulsion from
                      the CN Labeling Program. Based on current program regulations, these
                      were the only enforcement measures available to FNS to deter the
                      processor from continuing to violate CN Labeling Program requirements.

                  •   AMS Inspected Processor

                      FNS assigned a CN identification number for a cheese shell product and
                      advised the processor to resubmit revised labels for final approval in
                      January 2004; however, the processor took no further action. Production
                      records show that the processor produced the product on 4 days in January
                      and February 2004 without FNS’ final approval. The processor’s PQCP
                      stated that FNS approved the CN label in February 2004.

                      To ensure that the processor’s PQCP met standards, AMS reviewed and
                      approved it in 2002. According to AMS, changes made to the plan must be
                      resubmitted for approval. We found that the processor’s list of CN
                      approvals in the current PQCP included a CN number as having been
                      approved by FNS in 2004. However, FNS had not approved the CN
                      number, nor did the processor submit PQCP changes to AMS. AMS
                      management reported that they train their auditors to verify that labels used
                      on CN products are labels that have received FNS’ final approval. AMS
                      established procedures for verifying that the label in the processor’s file is
                      the label on the finished product. However, the AMS auditor who was
                      responsible for inspecting the processor did not verify FNS approval of the
                      CN label application during his last visit to the processor in
                      December 2004.

                  In 1989, NMFS established a policy for rescinding CN labels that had not
                  received FNS’ final approval within a year of FNS review. However, FNS’
                  CN label review procedures lack a mechanism for revoking CN numbers
                  assigned to processors who abandon the approval process. FNS had an
                  unwritten policy for revoking CN numbers and labels if the processor had no
                  quality control program or if product weights were insufficient. FNS’ officials
                  only made revocation determinations on a case-by-case basis.
USDA/OIG-AUDIT No. 27601-13-Hy                                                               Page 7
                   Stronger compliance enforcement measures are needed to deter processors
                   from violating CN Labeling Program requirements. In 2001, a Leadership
                   Institute report observed a need for increased flexibility in assessing penalties
                   against processors that abuse the CN Labeling Program. To address flagrant
                   abuse, the report recommended seeking legislative authority to enforce
                   compliance with the program through measures such as temporary and
                   permanent suspensions, fines, and other penalties.

                   We found insufficient assurance that CN labeled products served by food
                   service providers meet meal pattern requirements. The need to ensure that
                   FNS has approved CN labels prior to production is an issue that involves the
                   cooperation and expertise of more than one agency. FNS held several
                   meetings with inspection agencies after FSIS stopped approving PQCPs, but
                   no revisions to the MOU resulted. During the course of the audit, FNS
                   officials expressed support for the idea of working with the inspection
                   agencies to improve the MOU.

Recommendation 1

                   Implement a formal procedure to deter unauthorized production and
                   distribution of products that bear CN identification numbers but lack FNS’
                   final approval. Specifically, the procedure should include direct written notice
                   from FNS to processors concerning the label review determination, and
                   cautions against product production and distribution using the CN
                   identification number without final approval from FNS.

                   Agency Response

                   FNS will revise the wording of the approval stamps to clearly communicate
                   when production and distribution of CN labeled products are authorized and
                   not authorized. FNS intends to eliminate the “sketch” approval. FNS will
                   communicate with inspecting agencies regarding all changes to approval
                   stamps used for CN labeled products. FNS plans to complete these activities
                   by March 2007.

                   OIG Position

                   We accept FNS’ management decision.

Recommendation 2

                   Initiate followup contact with processors when they do not resubmit CN label
                   applications for final approval within 120 days of a sketched approval. If the
                   processor has not submitted a request to FNS for final approval within
                   180 days of a sketched approval, procedures to revoke CN label numbers
USDA/OIG-AUDIT No. 27601-13-Hy                                                               Page 8
                   should be implemented. Assure that applicant processors and inspectors are
                   notified of revocations as part of these procedures.

                   Agency Response

                   Included in Agency response to recommendation one is the intent to eliminate
                   the “sketch” approval and further clarify the meaning of the remaining
                   approvals. This would eliminate the need to contact the processor that sketch
                   approvals are revoked by a specific date.

                   OIG Position

                   We accept FNS’ management decision.

Recommendation 3

                   Collaborate with FSIS, AMS, and NMFS to revise the MOU to require
                   inspection procedures for all types of CN labeled products that ensure FNS has
                   approved each processor’s CN labels prior to production.

                   Agency Response

                   FNS will collaborate with FSIS, AMS, and NMFS to discuss how the MOU
                   could be revised to ensure companies produce CN labeled products with the
                   appropriate approval. FNS plans to complete these activities by March 2007.

                   OIG Position

                   We accept FNS’ management decision.

Recommendation 4

                   Coordinate with USDA’s Office of the General Counsel (OGC) and
                   interagency inspection officials to develop a mechanism for imposing
                   administrative consequences such as fines, penalties, and suspension on
                   abusers of the CN Labeling program.

                   Agency Response

                   FNS will seek a legal opinion from USDA’s OGC on our authority to impose
                   administrative consequences such as fines, penalties, and suspensions on
                   abusers of the CN Labeling Program. Based on OGC’s opinion, we will work
                   with officials for the inspecting agencies to develop a mechanism for imposing
                   administrative consequences for CN labeling abusers. FNS plans to complete
                   these activities by January 2007.

USDA/OIG-AUDIT No. 27601-13-Hy                                                            Page 9
                  OIG Position

                  We accept FNS’ management decision.




USDA/OIG-AUDIT No. 27601-13-Hy                          Page 10
Section 2. Partial Quality Control Programs

Finding 2                             FNS Did Not Ensure that PQCPs Adhered to Established
                                      Guidelines

                                      Each of the six processors we visited had a PQCP as required by FNS.
                                      However, we identified deficiencies in four of six reviewed. They did not meet
                                      the requirements for label control, product formulation control, and weight
                                      control. We also noted that the PQCPs did not always identify the products
                                      covered or define and identify product lots. This occurred because FNS did not
                                      establish controls for the review and approval of PQCPs after FSIS eliminated
                                      its requirement for approving the programs. As a result, CN labeled products
                                      may be prepared improperly and may not meet meal pattern requirements. In
                                      addition, ineligible products may be labeled as approved CN products.

                                      Regulations 9 state that CN labeled product must be produced under Federal
                                      inspection by USDA or USDC. The Federal inspection must be performed in
                                      accordance with an approved partial or total quality control program or
                                      standards established by the appropriate Federal inspection service. In 1997,
                                      FSIS published a final rule eliminating the need for the prior approval by FSIS
                                      of PQCPs for certain establishments. FSIS stated that the establishments were
                                      responsible for developing the PQCPs to meet regulatory requirements and
                                      provided guidelines as an appendix to the final rule. Following the publication
                                      of this rule, FNS issued a memorandum to plant managers stating that FNS
                                      still required that a PQCP be in place prior to production. FNS continued to
                                      issue more specific guidelines to processors because the PQCP guidelines
                                      provided by FSIS did not address all subject areas pertinent to CN labeling.

                                      In March 1998, representatives from each agency involved in the CN Labeling
                                      Program met to discuss how to update the current MOU. The MOU only
                                      addressed the cross-utilization of inspectors involved in the CN Labeling
                                      Program for the inspection of non-meat products. The MOU stated that
                                      inspections of non-meat products, when done by FSIS, had to be performed in
                                      accordance with PQCPs. Since FSIS stopped reviewing the PQCPs for content
                                      after the inception of HACCP, they requested that the PQCP prior-approval
                                      requirement be removed from the guidelines. Currently there is not an
                                      interagency agreement, or FNS policy, to address the review and approval of
                                      PQCPs. According to FNS officials, they were not qualified to approve
                                      PQCPs. They believed the processor was solely responsible for writing the
                                      quality control program and ensuring that it met the requirements. The lack of
                                      policy and a reliance on the processors’ understanding of the guidelines
                                      provides inadequate assurance that the processors’ CN labeled products are
                                      formulated, produced, and distributed in accordance with FNS guidelines.
9
    7 C.F.R. 210, Appendix C(4)(b).

USDA/OIG-AUDIT No. 27601-13-Hy                                                                               Page 11
                                  We reviewed the PQCPs for each of the six processors we visited to determine
                                  if plant management was complying with FNS guidelines when preparing the
                                  PQCP. FNS guidelines 10 identify 13 required components for PQCPs. 11 Our
                                  comparison of each processor’s PQCP to FNS guidelines revealed that four of
                                  six processors’ PQCPs contained deficiencies. The following table highlights
                                  the types of deficiencies noted.

                                                              Product                                                   Product Lots
                                                            Formulation            Weight              Products          Not Defined
                      Processor        Label Control          Control              Control             Covered          and Identified
                     Processor A             X                                       X
                     Processor B             X                     X                                       X                   X
                     Processor C                                            No deficiencies noted
                     Processor D               X                                                           X
                     Processor E                                            No deficiencies noted
                     Processor F               X

                                       •    Processor A – The processor’s PQCP included a CN label number that
                                            FNS had not approved, which caused a label control deficiency. AMS
                                            auditors did not detect that the processor used the unapproved label for
                                            CN production. Two PQCP omissions caused a weight control
                                            deficiency. Fill specifications were not stated for pasta products as
                                            required when filling contains more than one ingredient. Verification
                                            procedures for raw weights were omitted, contrary to FNS’ guidelines.

                                       •    Processor B – The PQCP did not meet FNS’ label control requirements
                                            because the processor omitted a list of approved CN numbers. In
                                            addition, the PQCP did not meet FNS’ requirement for a batch
                                            formula, which resulted in a product formulation control weakness.
                                            The processor did not include the names of products covered under the
                                            PQCP. The document did not conform to FNS guidelines for product
                                            lots, because it did not define a “lot” and address how the processor
                                            identifies lots when they test CN products.

                                       •    Processor D –The processor’s PQCP excluded a list of approved CN
                                            numbers and omitted a list of covered products, which weakened label
                                            controls.

                                       •    Processor F – The processor’s PQCP contained two CN numbers that
                                            were not approved by FNS, which led to a label control deficiency.
                                            The document did not indicate Government approval. During our site
                                            visit we found that the processor had produced and distributed the

10
     Guideline for Preparation of PQCP #550.
11
     PQCP Required Components: Products Covered, Scales/Meters/Thermometers, Donated Commodities, Fat Control, Formulation Control, Lotting,
     Weight Control, Maximum Cooking Yield, Temperature Control, Rework Control, Label Control, Monitoring Procedure, and Record Keeping
     Procedure.

USDA/OIG-AUDIT No. 27601-13-Hy                                                                                                     Page 12
                          noncompliant product. The processor later revised its PQCP in
                          response to instructions from FSIS.

                   Establishing review and approval procedures for PQCPs would ensure that
                   guidelines are met.

Recommendation 5

                    Facilitate interagency coordination with the inspection agencies by revising
                    the MOU to establish approval procedures for PQCPs and PQCP revisions to
                    ensure that processor’s PQCPs adhere to FNS and the inspection agencies’
                    guidelines.

                    Agency Response

                    FNS will coordinate with FSIS, AMS, and NMFS to discuss how the MOU
                    could be revised to ensure processors produce CN labeled products following
                    PQCPs that meet FNS and the inspecting agencies’ guidelines. FNS plans to
                    complete these activities by March 2007.

                    OIG Position

                    We accept FNS’ management decision.




USDA/OIG-AUDIT No. 27601-13-Hy                                                          Page 13
Scope and Methodology
                                     We performed our audit work at FNS Headquarters located in Alexandria,
                                     Virginia; FSIS Headquarters in Washington, DC; and approved CN
                                     processors in Pennsylvania. We performed our onsite audit fieldwork from
                                     March through July 2005. As we developed issues, we followed up with FNS
                                     and the inspection agencies on various issues until December 2005.

                                     We interviewed responsible officials at USDA’s FNS, FSIS, AMS, and
                                     USDC’s NMFS Headquarters. We reviewed regulations, policies, procedures,
                                     and guidelines for the CN Labeling Program. We visited two processors in
                                     Maryland and Virginia to gain an understanding of the roles of FSIS
                                     inspectors and plant managers in the CN Labeling Program.

                                     We identified additional processors in the Office of Inspector General’s
                                     Northeast Region 12 to visit and test controls of the program. They were
                                     selected by comparing an FNS list of 939 CN label applicants to an FSIS list
                                     of inspections performed in April 2005 under inspection task 04B02 for CN
                                     labeled products. The comparison disclosed 33 processors that produced CN
                                     labeled products in 2004 and 2005. We judgmentally selected and visited six
                                     processors in Pennsylvania 13 that planned to produce CN labeled products in
                                     June or July 2005.

                                     Prior to visiting the processors, we visited FNS Headquarters and spoke with
                                     FNS personnel to determine the process used to review CN label application
                                     packages and determined the accuracy of the label approval process. We
                                     reviewed the label applications for the sample of 33 processors using the
                                     process described by FNS.

                                     Upon our arrival at each processor, we requested copies of the label
                                     application packages the processors received back from FNS, copies of each
                                     processor’s PQCP, copies of the production schedule from calendar years
                                     2004-2005, the list of the 2004-2005 FSIS procedure 04B02 runs, and a list
                                     of all approved CN label numbers. We reviewed the documentation to
                                     determine whether products met the specifications provided to FNS,
                                     guidelines were being met, and inspections were being done. We determined
                                     whether CN production was subjected to PQCP tests and whether the
                                     processors noted and corrected any production deficiencies. We obtained
                                     FNS’ lists of approved labels for each processor. We compared FNS’ list of
                                     approved labels to the list of labels we received from each processor to

12
     Delaware, District of Columbia, Maryland, Virginia, West Virginia, New Jersey, Pennsylvania, Connecticut, Maine, Massachusetts, New Jersey,
     New York, Rhode Island, and Vermont.
13
     Lancaster, Bloomsburg, Moosic, New Holland, Reading, and Hummelstown, Pennsylvania.


USDA/OIG-AUDIT No. 27601-13-Hy                                                                                                       Page 14
                   determine whether all of the processors’ labels had been approved by FNS.
                   When questionable labels were found, we contacted FNS and the appropriate
                   processor to receive additional information.

                   Federal inspection for CN labeled products must be performed in accordance
                   with an approved partial or total quality control program or standards
                   established by the appropriate Federal inspection service. We found that four
                   out of six processors we visited had partial quality control programs that did
                   not adhere to the established guidelines for preparation. Key components of
                   the partial quality control programs contained deficiencies in products
                   covered, formulation control, weight control, temperature control, label
                   control, and lotting. Prior to 1997, FSIS had the responsibility for the review
                   and approval of partial quality control programs. However, in a final rule
                   issued August 25, 1997, FSIS eliminated the requirement for partial quality
                   control programs to have approval prior to production.

                   We conducted the audit in accordance with Government Auditing Standards
                   established by the Comptroller General of the United States.




USDA/OIG-AUDIT No. 27601-13-Hy                                                            Page 15
Exhibit A – Agency Response
                                 Exhibit A Page 1 of 2




USDA/OIG-AUDIT No. 27601-13-Hy                 Page 1
                                 Exhibit A Page 2 of 2




USDA/OIG-AUDIT No. 27601-13-Hy                 Page 2
